No. 20-443

 

 

In THE

Supreme Court of the United States

UNITED STATES OF AMERICA,

Petitioner,
v.

DZHOKHAR A. TSARNAEV,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

BRIEF OF AMICI CURIAE
SHIRIN BAKHSHAY, TARIKA
DAFTARY-KAPUR, YAEL DANIELI,
ANGELA JONES, MARGARET BULL
KOVERA, STEVEN D. PENROD &
CHRISTINE L. RUVA
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,176 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 27, 2021.

 

Colin Casey/Hogan
Wilson-Epes Printing Co., Inc.
